INS-O-02-01




  INSPECTION                   INSPECTION ON THE MANAGEMENT
    REPORT                      OF EXCESS PERSONAL PROPERTY
                                   AT LAWRENCE LIVERMORE
                                    NATIONAL LABORATORY




                                      NOVEMBER 2001




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
     OFFICE OF INSPECTIONS
                                 Department of Energy
                                   Washington, DC 20585




                                       November 8, 2001

MEMORANDUM FOR THE MANAGER, OAKLAND OPERATIONS OFFICE

FROM:          Sandra L. Schneider /s/
               Assistant Inspector General for Inspections
               Office of Inspector General

SUBJECT:       INFORMATION: Report of “Inspection on the Management of Excess Personal
               Property at Lawrence Livermore National Laboratory”

BACKGROUND

Lawrence Livermore National Laboratory (Livermore) has a personal property inventory of over
53,500 line items with an acquisition value of over $823 million. It generates thousands of
excess personal property items each year. In FY 2000, for example, Livermore excessed over
12,000 items of personal property with an acquisition value of over $59 million. These items
were disposed of through reutilization, donations, and public sales. Our inspection evaluated the
economy and efficiency of Livermore’s management of excess personal property.

RESULTS OF INSPECTION

The inspection found the following:

•   Livermore has complied with Chapter 109, Title 41, Code of Federal Regulations,
    “Department of Energy Property Management Regulations” (DOE-PMR), in the area of
    personal property storage and the screening of personal property suspected of contamination
    by hazardous or radiological materials.

•   Contrary to the DOE-PMR, Livermore’s program officials have not performed high risk
    reviews of personal property items before the items are processed into Livermore’s
    reutilization and disposal program. Program officials who have the expertise and are the best
    qualified to identify nuclear-related and proliferation-sensitive high risk personal property
    items have not been conducting high risk reviews, and, contrary to the DOE-PMR, program
    officials have not been responsible for attaching certification tags indicating that the items
    are high risk and require special handling and disposal. We found that these requirements
    were not included in Livermore’s approved Property Management Policies and Procedures.
                                               -2-



•   Livermore has not recorded all “reportable” excess personal property items in the
    Department of Energy’s (DOE) Energy Asset Disposal System (EADS) for DOE-wide
    reutilization screening. As a result, DOE organizations that may have valid requirements for
    the items are not always aware that the items are available.

•   Personal property items listed in EADS transfer automatically to the Federal Disposal System
    (FDS) for screening by Federal and State agencies if the items are not utilized by DOE
    organizations. Since Livermore has not recorded all of their “reportable” excess personal
    property items in EADS, Federal and State agencies are not always aware that the items are
    available.

•   Livermore has sold personal property items listed in EADS and FDS before the required
    screening period for the items had expired. Consequently, these items would not have been
    available had there been a request for the items from DOE and other Federal and State
    organizations after the items had been sold.

MANAGEMENT REACTION

The Oakland Operations Office concurred with all report recommendations.


cc: Administrator, National Nuclear Security Administration
    Director, Office of Management, Budget and Evaluation
    Director, Office of Procurement and Assistance Management
    Director, Policy and Internal Control Management, NA-66
    Leader, Audit Liaison Team, CR-2
INSPECTION ON THE MANAGEMENT OF EXCESS
PERSONAL PROPERTY AT LAWRENCE LIVERMORE
NATIONAL LABORATORY

TABLE OF
CONTENTS



             OVERVIEW

             Introduction and Objective………………………………… 1

             Observations and Conclusions……………………………                1


             DETAILS OF FINDINGS …………………………………. 3

             Property Management Policies and Procedures.……….       3

             High Risk Personal Property Program ………………….           3

             Personal Property Reutilization Screening Program ….   5

             Sales of Surplus Personal Property …………………….           6


             RECOMMENDATIONS ………………………………….                         7


             MANAGEMENT REACTION …………………………….                       8


             INSPECTOR COMMENTS ………………………………                        8


             APPENDICES

             A. Scope and Methodology ………………..………….                 9

             B. Additional High Risk Requirements of the
                Department of Energy Property
                Management Regulations …………………………                   10

             C. Glossary ……………………………………………..                        11
Overview
INTRODUCTION       Lawrence Livermore National Laboratory (Livermore) is a
AND OBJECTIVE      National Nuclear Security Administration (NNSA) laboratory
                   operated by the University of California for the Department of
                   Energy (DOE). It has a personal property inventory of over 53,500
                   line items with an acquisition value of over $823 million.

                   Livermore generates thousands of excess personal property items
                   each year. In FY 2000, for example, Livermore excessed over
                   12,000 items of personal property with an acquisition value of over
                   $59 million. Livermore disposed of the items through
                   reutilization, donations, and public sales.

                   The purpose of our inspection was to evaluate the economy and
                   efficiency of Livermore’s management of excess personal
                   property. The objective of our inspection was to determine
                   whether Livermore’s practices for the storage and disposal of
                   excess personal property, including “high risk” personal property,
                   are consistent with DOE policies and procedures and with
                   Livermore’s Management and Operating contract. As part of this
                   objective, we reviewed Livermore’s compliance with DOE’s
                   policy for screening excess personal property for hazardous and
                   radioactive materials to prevent the inadvertent release of
                   contaminated personal property to the public.

OBSERVATIONS AND   Our inspection found that Livermore has complied with
CONCLUSIONS        Chapter 109, Title 41, Code of Federal Regulations, “Department
                   of Energy Property Management Regulations” (DOE-PMR), in the
                   area of personal property storage and the screening of personal
                   property suspected of hazardous or radiological contamination.
                   However, our inspection found some weaknesses in Livermore’s
                   compliance with the provisions of the DOE-PMR regarding high
                   risk personal property, reutilization screening of personal property,
                   and public sales of surplus personal property. Specifically, we
                   found that:

                   •   Contrary to the DOE-PMR, Livermore’s program officials
                       have not performed high risk reviews of personal property
                       items before the items are processed into Livermore’s
                       reutilization and disposal program. Program officials who
                       have the expertise and are the best qualified to identify nuclear-
                       related and proliferation-sensitive high risk personal property
                       items have not been conducting high risk reviews, and,
                       contrary to the DOE-PMR, program officials have not been
                       responsible for attaching certification tags indicating that the
                       items are high risk and require special handling and disposal.
                       We found that these requirements were not included in



Page 1                                                                   Overview
             Livermore’s approved Property Management Policies and
             Procedures.

         •   Livermore has not recorded all “reportable” excess personal
             property items in the Energy Asset Disposal System (EADS)
             for DOE-wide reutilization screening. As a result, DOE
             organizations that may have valid requirements for the items
             are not always aware that the items are available.

         •   Personal property items listed in EADS transfer automatically
             to the Federal Disposal System (FDS) for screening by Federal
             and State agencies if the items are not utilized by DOE
             organizations. Since Livermore has not recorded all of their
             “reportable” excess personal property items in EADS, Federal
             and State agencies are not always aware that the items are
             available.

         •   Livermore has sold personal property items listed in EADS and
             FDS before the required screening period for the items expired.
             Consequently, these items would not have been available had
             there been a request for the items from DOE and other Federal
             and State organizations after the items had been sold.




Page 2                                                           Overview
Details of Findings
Property Management   DOE’s Management and Operating (M&O) contract with the
Policies and          Regents of the University of California requires Livermore
Procedures            to comply with the provisions of the DOE-PMR. Clause 6.12,
                      “Property,” of Livermore’s M&O contract states that Livermore
                      shall maintain and administer a property management system in
                      accordance with applicable Federal and DOE Property
                      Management Regulations.

                      The DOE-PMR, Section 109-1.5201, “Policy,” requires contractors
                      to establish in writing a property management system consistent
                      with the “terms of the contract; prescribed policies, procedures,
                      regulations . . . . and directions from the contracting officer.” The
                      DOE-PMR also requires the cognizant DOE contracting officer to
                      review and approve in writing property management systems that
                      contractors have established.

                      Consistent with the DOE-PMR, Livermore has established a
                      property management system that was last approved by the
                      Oakland Operations Office (Oakland) on August 23, 1999. The
                      system is outlined in Livermore’s “Property Management Policies
                      and Procedures” manual dated August 4, 1999. The manual
                      includes guidelines for managing high risk personal property and
                      for the storage and disposal of excess personal property.

High Risk Personal
Property Program

DOE-PMR High Risk     The DOE-PMR at Section 109-1.5302, “Policies,” states that
Requirements          “High risk personal property will be managed throughout its life
                      cycle so as to protect public and DOE personnel safety and to
                      advance the national security and the nuclear nonproliferation
                      objectives of the U.S. Government.” The DOE-PMR also states
                      that items of high risk personal property “may present significant
                      risks to the national security and nuclear nonproliferation
                      objectives of the Government which must be evaluated.” In
                      addition, the DOE-PMR states that “Organizations will identify
                      high risk property and control its disposition to eliminate or
                      mitigate such risks.” Additional high risk requirements of the
                      DOE-PMR are listed in Appendix B.

                      The DOE-PMR provides that contractor property management
                      programs can deviate from the life cycle control requirements for
                      high risk personal property. The DOE-PMR states that when
                      Heads of Field Organizations approve a contractor program
                      containing controls for high risk personal property other than the
                      life cycle control consistent with the DOE-PMR, the decision shall



Page 3                                                                Details of Findings
                                be justified in writing and a copy sent to the “Deputy Assistant
                                Secretary for Procurement and Assistance Management.”

Livermore’s High Risk           Livermore’s procedures for identifying high risk personal property,
Procedures are not in           which were approved by Oakland, are not in complete compliance
Complete Compliance             with the DOE-PMR, since the procedures do not specifically
the DOE-PMR                     require program officials to conduct high risk reviews of personal
                                property items before the items are processed into Livermore’s
                                reutilization and utilization/disposal program.

                                Livermore conducts high risk reviews of personal property after
                                the items have become excess to program officials (property users)
                                and the items have been transferred for reutilization or disposal to
                                Livermore’s excess personal property storage yard. 1 The
                                Livermore Donation, Utilization, and Sales Group (DUS) property
                                disposal personnel conduct the high risk reviews when the items
                                arrive at the DUS storage yard. The disposal personnel physically
                                examine each item and compare the item’s characteristics with
                                those listed in high risk reference materials 2 to determine whether
                                it is high risk. On occasion, the disposal personnel will contact
                                program officials for additional information regarding the
                                characteristics of an item and how the item had been used.
                                Otherwise, they would have no contact with program officials with
                                regard to the identification of high risk personal property items.

                                Contrary to the DOE-PMR, Livermore procedures do not require
                                program officials, who have the expertise and are the best qualified
                                to identify nuclear-related and proliferation-sensitive high risk
                                personal property items, to conduct high risk reviews before the
                                items are transferred for reutilization or disposal. Also, contrary to
                                the DOE-PMR, Livermore procedures do not require program
                                officials to be responsible for attaching certification tags indicating
                                that the items are high risk and require special handling and
                                disposal. In addition, Livermore procedures do not require
                                program officials to certify that the items have been stripped of all
                                characteristics which have caused the items to be nuclear-related or
                                proliferation-sensitive, or to provide the “property disposal office”
                                adequate instructions for stripping the items. Program officials
                                told us that DUS determines whether personal property items sent
                                to the DUS storage yard are high risk. They also said that they did
                                not know the process or criteria DUS uses to determine if the items
                                are high risk.


1
  Operated by the Livermore’s Donation, Utilization, and Sales Group.
2
  High risk reference materials include the Nuclear Suppliers Group Trigger List and the Dual Use List
described in the International Atomic Energy Agency Information Circular.


Page 4                                                                             Details of Findings
Personal Property
Reutilization
Screening Program

Reutilization            Livermore is required by the DOE-PMR to identify and record all
Screening                “reportable” excess personal property in EADS for DOE-wide
Requirement              reutilization screening. While in EADS, if the personal property is
                         not utilized by DOE organizations, it transfers automatically to the
                         FDS for screening by Federal and State agencies. As such,
                         personal property that Livermore has not recorded in EADS would
                         not, in turn, appear in FDS. Consequently, DOE organizations,
                         other Federal agencies, and State agencies that may have valid
                         requirements for the personal property would not be aware that the
                         personal property was available.

Required Number of       According to DOE property regulations, organizations have 15
Days for Reutilization   days to screen personal property recorded in EADS. After 15 days
Screening                in EADS, the property becomes surplus to DOE and the personal
                         property then transfers automatically to FDS for screening by
                         Federal agencies for a period of 21 days. After 21 days, the
                         personal property is then made available for screening by State
                         agencies for an additional 21 days. The total screening period is
                         57 days. After 57 days, the personal property is considered surplus
                         to Federal and State agencies and contractors can dispose of the
                         personal property. If the excess personal property is an instrument
                         or laboratory equipment that falls under DOE’s Energy Related
                         Laboratory Equipment (ERLE) grant program for colleges and
                         universities, an additional 19 days of screening is added to the 57
                         days, bringing the total screening period to 76 days. ERLE
                         screening occurs at the conclusion of the 15-day DOE screening
                         period.




Page 5                                                                  Details of Findings
Reportable Excess   Livermore, in some instances, did not record all “reportable”
Personal Property   excess personal property in EADS for DOE-wide reutilization
Not Recorded in     screening. Our review of Livermore’s excess personal property
the EADS            history report from January to May 2000, disclosed that Livermore
                    had over 3,500 items of excess personal property. Livermore was
                    not required to record the vast majority of the over 3,500 items in
                    EADS because the items had been classified as “scrap” or had
                    exceeded their service life. However, 246 items were “reportable”
                    and should have been recorded in EADS. But our review found
                    that Livermore had not recorded all 246 items in EADS. Of the
                    246 items, we randomly selected 142 items and reviewed the
                    EADS for these items. We found that only 45 of the 142 items
                    were recorded in EADS, leaving 97 items missing from the EADS.
                    Livermore property officials could not provide any evidence that
                    the 97 missing items were recorded. They said that the items were
                    not recorded in the EADS because they believed that there was a
                    mix-up in the record keeping of the items by the two employees
                    responsible for recording the items in the EADS. Listed below are
                    examples of the 97 items that were not recorded in the EADS:

                                                           Acquisition
                    Item                        Model         Value Condition

                    Printer Digital           XL-7700        $22,617      Useable
                    Control Disk Storage      9335A01        $18,734      Useable
                    Digitizer Transient       R7912          $42,230      Repairable
                    Computer-Series           A1950B         $23,225      Useable
                    Server Gateway            AGS            $28,795      Useable

                    These items were never made available to DOE and other Federal
                    and State agencies as intended by the DOE-PMR. The items were
                    sold at public sales.

Sales of Surplus
Personal Property

Personal Property   Livermore has disposed of excess personal property items
Sold Before the     through public sale before the required reutilization screening
Screening Period    periods for EADS and FDS had expired. Specifically, of the
Had Expired         45 items discussed previously that were recorded in EADS,
                    Livermore had disposed of 43 items through public sales before the
                    required reutilization screening periods of the EADS and the FDS
                    had expired. As a result, these items would not have been
                    available had there been a request for the items from Federal and
                    State agencies after the items had been sold by Livermore. A
                    Livermore property supervisor told us that he believes the items



Page 6                                                           Details of Findings
                  were sold prior to the expiration of the reutilization screening
                  periods in order to create additional storage space.

                  Examples of the 43 items are listed below:

                                                     Entered In      Date     # of Days
                  Item                Model           EADS           Sold      Screened

                  Printer Video      TP6490          01/03/00      02/17/00      44
                  Computer           PE40A-A9        01/07/00      01/21/00      14
                  X-ray Unit         M83135R14       01/07/00      01/25/00      18
                  Copy Machine       1065            01/10/00      02/17/00      37
                  Analyzer-Image     2001            02/29/00      03/16/00      16

RECOMMENDATIONS   We recommend that the Manager, Oakland Operations Office,
                  direct Livermore to:

                  1. Revise the current procedures for identifying high risk personal
                     property to comply with the provisions of the DOE-PMR as it
                     relates to the responsibilities of program officials.

                  2. Ensure that the Livermore high risk property procedures are
                     submitted to the Oakland Operations Office for approval.

                  3. Ensure that all “reportable” excess personal property items are
                     recorded in the EADS for DOE-wide reutilization screening.

                  4. Ensure that excess personal property items are not sold prior to
                     the expiration of the applicable screening period as established
                     by the DOE-PMR.




Page 7                                                            Recommendations
MANAGEMENT   Oakland concurred with the four recommendations. Regarding
REACTION     Recommendation 1, Oakland stated that Livermore has
             implemented a procedure for obtaining initial program official
             input for identifying high risk personal property. Regarding
             Recommendation 2, Oakland stated that high risk procedures,
             which are incorporated in the Livermore Property Management
             Policies and Procedures, will be submitted to Oakland for review
             and approval as required. Regarding Recommendation 3, Oakland
             stated that necessary changes have been implemented to ensure
             that all “reportable” excess personal property is recorded in the
             EADS program for DOE-wide screening. Regarding
             Recommendation 4, Oakland stated that necessary system changes
             have been implemented to ensure that personal property items will
             not be sold prior to expiration of applicable screening periods.

             Oakland stated that, although Livermore’s program officials have
             not performed high risk reviews of personal property items before
             the items are processed into Livermore’s reutilization and disposal
             program, fully trained disposal personnel were conducting high
             risk reviews of personal property items before the items are entered
             into the utilization and disposal process.

INSPECTOR    We consider Oakland’s comments to be responsive to our
COMMENTS     recommendations.




Page 8                        Management Reaction/Inspector Comments
Appendix A
Scope and     As part of our inspection, we interviewed contractor officials
Methodology   from Lawrence Livermore National Laboratory, and officials from
              the Oakland Operations Office and DOE Headquarters. We also
              reviewed pertinent documents related to the inspection. The
              documents included: 1) Title 41, Code of Federal Regulations
              Chapter 109, “Department of Energy Property Management
              Regulations;” 2) DOE Order 5400.5, “Radiation Protection of the
              Public and the Environment;” 3) Livermore’s Management and
              Operating Contract, effective October 1, 1997; 4) Livermore’s
              Property Management Policies and Procedures, dated
              August 4, 1999; 5) Livermore’s ES&H Manual, “Requirements for
              Transfer of Equipment and Property for Repair, Reuse,
              Maintenance, Storage, Excess or Scrap,” dated August 21, 2000;
              6) Livermore’s excess property history reports from
              August 1, 1998, to May 31, 2000; 7) Livermore’s Donation,
              Utilization & Sales Group Monthly DUS Activity for FYs 97, 98,
              99, and 00; and 8) the DOE Monthly Item Status Report (the
              EADS report) from January 31, 2000, to June 30, 2000.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspection” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                              Scope and Methodology
Appendix B

          Additional High Risk Requirements of the DOE-PMR
•   To ensure the appropriate treatment of high risk personal property at its disposal and to
    prevent inadvertent release of the item, the property should be assessed and evaluated as high
    risk as early in its life cycle as practical. Newly acquired high risk personal property shall be
    identified and tracked during its acquisition process and marked upon receipt.

•   All personal property shall be reviewed for high risk identification, marking, and database
    entry during regularly scheduled physical inventories, unless access to the property is
    difficult or impractical.

•   Prior to disposition, all personal property, material or data will be assessed to
    determine whether it should be characterized as high risk and what actions are
    necessary to ensure compliance with applicable national security nonproliferation
    controls.

•   Contractors may not process high risk personal property into a reutilization/disposal
    program without performing reviews which must be documented in accordance with
    the approved site or facility personal property management program.

•   Recognizing that “property disposal officials” will not have the technical knowledge to
    identify nuclear related and proliferation-sensitive personal property items, program officials
    shall physically tag these items with a certification signed by the authorized program official
    at the time the property is determined excess. Also, the program officials will certify that
    appropriate actions have been taken to strip all characteristics which cause the items to be
    nuclear-related or proliferation-sensitive personal property or provide the property disposal
    office with adequate instructions for stripping of the items.




Page 10                                                     Additional High Risk Requirements
                                                            of the DOE-PMR
Appendix C

                                       GLOSSARY


Energy Asset           A DOE centralized automated listing of excess reportable personal
Disposal System (EADS) property used by DOE organizations for reutilization screening.

Energy-Related             DOE, in accordance with its responsibility to encourage research
Laboratory Equipment       and development in energy, awards grants (transfers of
(ERLE)                     accountability) of used energy-related laboratory equipment to
                           colleges, junior colleges, technical institutes, hospitals, museums
                           and other nonprofit programs in the life, physical, and
                           environmental sciences and in engineering.

Federal Disposal           A General Services Administration (GSA) automated system
Systems (FDS)              for researching, tracking, and controlling the nation-wide inventory
                           of excess and surplus property of the Government. The FDS lists
                           all reportable surplus personal property of the Government for
                           reutilization screening by Federal and State agencies.

High Risk Property         Property that, because of its potential impact on public health,
                           safety, the environment, national security interests or proliferation
                           concerns, must be controlled and/or disposed of in other methods
                           than the routine manner. The DOE categories of high risk personal
                           property are: 1) automated data processing equipment;
                           2) especially-designed or prepared property; 3) export controlled
                           property; 4) export controlled information; 5) hazardous property;
                           6) nuclear weapon components or weapon-like components;
                           7) proliferation-sensitive property; 8) radioactive property;
                           9) special nuclear material; and 10) unclassified controlled
                           information.

Personal Property          Personal property and property are synonymous. Personal
                           property means property of any kind, except for real estate and
                           interests therein (such as easements and rights-of-way), and
                           permanent fixtures which are Government-owned, chartered,
                           rented, or leased from commercial sources by and in the custody of
                           DOE or its designated contractors.

Proliferation-Sensitive    Nuclear-related or dual-use equipment, material or technology as
Personal Property          described in the Nuclear Suppliers Group Trigger List and Dual-
                           Use List, or equipment, material or technology used in the
                           research, design, developments, testing, or production of nuclear or
                           other weapons.




Page 11                                                                             Glossary
Reportable Property   Property that is in good to repairable condition, was acquired at a
                      cost of $5,000 or more, and has a Federal Supply Code that meets
                      Federal reportable standards.

Surplus Property      Excess personal property no longer required after being reported in
                      the DOE and GSA screening process.




Page 12                                                                        Glossary
                                                                    IG Report No. INS O-02-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
